1a
APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-13762
D.C. Docket No. 9:11-cr-80205-KAM-1
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
versus
MITCHELL J. STEIN,
Defendant - Appellant.
Appeal from the United States District Court
for the Southern District of Florida
(July 13, 2020)
Before: LUCK, ED CARNES and MARCUS, Circuit
Judges.
MARCUS, Circuit Judge:
This is the second time this case has traveled to
our Court. A jury sitting in the Southern District of
Florida convicted Mitchell Stein of multiple counts of
mail fraud, securities fraud, wire fraud, and money
laundering, as well as conspiracy to commit wire and
mail fraud and conspiracy to obstruct justice. In
Round I, we affirmed Stein’s convictions but remanded with specific instructions to “calculate anew

2a
the amount of loss for purposes of” sentencing and restitution. The case is back before us because Stein
claims that the district court did not remedy the original errors found in his sentence. After review, we
conclude that the district court addressed and entirely resolved the issues raised by the previous panel.
Stein also challenges now and for the first time a forfeiture order imposed by the district court, and he attempts to relitigate alleged due process violations
that had been rejected by our Court the first time out.
These claims fall far outside of the limited scope of our
remand; we will not review them now. Accordingly,
we affirm.
I.
The facts of this case were set forth in detail in a
prior published opinion, see United States v. Stein,
846 F.3d 1135, 1140–42 (11th Cir. 2017). We recite
only those necessary to the resolution of this appeal.
Mitchell Stein served as corporate counsel for Signalife, a medical company specializing in manufacturing
heart devices. Id. at 1139. Between 2007 and 2008,
Stein engaged in fraud by concocting fraudulent purchase orders for heart devices and reporting those
sales publicly to investors. Id. Thus, for example,
Stein drafted a press release which was issued by Signalife in September 2007, touting some $3.3 million
in sales. Id. at 1141. But those sales were supported
by fake orders from fake companies and never occurred. Id. Stein later reversed the orders by sending
in order cancellations from these bogus companies,
and Signalife disclosed the cancellations on August
15, 2008, in its Form 10-Q for the second quarter of
2008. Id. at 1142.

3a
The Securities and Exchange Commission (“SEC”)
launched an investigation into Signalife in 2009. Id.
Following that inquiry, the Department of Justice
(“DOJ”) conducted a criminal investigation into
Stein’s activities in 2010. Id. A federal grand jury sitting in the Southern District of Florida indicted Stein
with one count of conspiracy to commit mail and wire
fraud, in violation of 18 U.S.C. § 1349; three counts of
mail fraud, in violation of 18 U.S.C. §§ 1341 and 2;
three counts of wire fraud, in violation of 18 U.S.C.
§§ 1343 and 2; three counts of securities fraud, in violation of 18 U.S.C. §§ 1348 and 2; three counts of
money laundering, in violation of 18 U.S.C. §§ 1957
and 2; and one count of conspiracy to obstruct justice,
in violation of 18 U.S.C. § 371. Id.
After a two-week trial, Stein was convicted on all
counts. The district court sentenced Stein to 204
months’ imprisonment and two years’ supervised release. It also imposed restitution in the amount of
$13,186,025.85 and ordered Stein to forfeit
$5,378,581.61. A portion of the forfeiture order was
grounded on the theory of joint and several liability
for the illicit gains of Stein’s coconspirator, Martin
Carter, who bought and sold Signalife stock at Stein’s
direction and transferred most (but not all) of the proceeds back to Stein. Id. at 1142.
Stein appealed his convictions and sentence to this
Court. He argued that the government knowingly
made and allowed several false statements at trial in
violation of his due process rights. Id. at 1145–50.
Stein also attacked his sentence, claiming that the
district court erred in calculating the loss amount of
Stein’s victims under Sentencing Guideline

4a
§ 2B1.1(b)(1), and the restitution amount under the
Mandatory Victims Restitution Act (“MVRA”), 18
U.S.C. § 3663A.1 Id. at 1151–56. Stein claimed that
both calculations rested on a number of erroneous assumptions and were supported by insufficient evidence. In essence, Stein urged that the government
had failed to establish by a preponderance of the evidence that each of Stein’s victims relied on the fraudulent information Stein provided. He also argued that
the district court failed to consider whether Signalife’s stock value had declined at least in part because
of factors independent of Stein’s fraud, i.e., the short
selling of over 22 million shares of Signalife stock and
the profound, across-the-board stock market decline
in 2008. Id. at 1153–56.
We affirmed Stein’s convictions but vacated his
sentence. Id. at 1140. We found that the “record contains no direct, individualized evidence of reliance for
each investor,” and that “the circumstantial evidence
in the record is far too limited to support a finding
that” every investor “relied on the fraudulent information Mr. Stein disseminated.” Id. at 1154. We also
agreed that the district court did not “make findings
regarding the effects of . . . . intervening events, if any,
and whether these events were reasonably foreseeable to Mr. Stein.” Id. at 1156. We specifically pointed
to the district court’s failure to consider “the short
The first panel noted, however, that the “method for calculating
actual loss, as opposed to intended loss, under the Sentencing
Guidelines is largely the same as the method for establishing actual loss to identifiable victims under the MVRA,” so it reviewed
these claims together. Stein, 846 F.3d at 1153 (quotation omitted). We do so again here.
1

5a
selling of over 22 million shares of Signalife stock and
the across-the-board stock market decline of 2008.”
Id. at 1155.
Accordingly, we remanded the case to the district
court for the limited purpose of considering evidence
of investor reliance and intervening events that may
have caused the stock price to decline. Id. at 1156. The
scope of our remand was express, narrow and specific:
“to calculate anew the amount of loss for purposes of
U.S.S.G. § 2B1.1(b)(1) and restitution under the
MVRA.” Id. Our mandate was clear. We asked the district court to do no more and no less.
On remand, the government submitted expert testimony regarding both investor reliance and the effect
of intervening events. The government’s expert, Dr.
Chyhe Becker, conducted statistical analyses which
provided evidence of investor reliance. Dr. Becker also
concluded that intervening events did not impact Signalife’s stock price. Stein produced his own expert, Dr.
Edward O’Neal, who disputed both of these findings.
The district court found Dr. Becker to be credible and
adopted her methodology. Ultimately, the district
court determined that 616 investor victims suffered
losses in the amount of $1,029,570. It resentenced
Stein to 150 months’ imprisonment and three years’
supervised release and also ordered him to pay
$1,029,570 in restitution.
Stein also challenged on remand, and, notably, for
the first time, the district court’s $5.4 million forfeiture order. He claimed that the government failed to
prove that the amount to be forfeited was traceable to
Stein’s offenses. And he argued that the portion of the

6a
forfeiture order which was based on a theory of joint
and several liability was foreclosed by an intervening
change in law, relying on Honeycutt v. United States,
137 S. Ct. 1626, 1628 (2017). The district court rejected all of these arguments. Stein had not challenged the forfeiture order on appeal, and the court
found no conditions which would “allow a district
court to deviate from the appellate mandate” in this
case.
Finally, while his first appeal was still pending,
Stein had moved in district court for a new trial under
Federal Rule of Criminal Procedure 33. In that motion, Stein pressed the same argument he had made
on appeal: that the government made or allowed the
admissibility of material misstatements in violation
of his due process rights under Brady v. Maryland,
373 U.S. 83 (1963) and Giglio v. United States, 405
U.S. 150 (1972). See Stein, 846 F.3d at 1145–50. Stein
claimed that the government made statements during
the then-ongoing appeal which amounted to “newly
revealed evidence” of due process violations. Almost
two years later -- and more than one year after our
previous panel rejected Stein’s due process claims -Stein supplemented his Rule 33 motion with a declaration from Thomas Tribou, a customer listed on one
of Stein’s fraudulent purchase orders. The district
court summarily denied the Rule 33 motion.
This timely appeal followed.
II.
Stein argues now that this Court erred in affirming his convictions three years ago by rejecting the
claim that the government knowingly used or relied

7a
on false evidence in violation of the Due Process
Clause, Brady, and Giglio. For the reasons we detail
below, we reject Stein’s attempt to reopen this decided
question. The mandate rule and the law of the case
doctrine bar us from revisiting this claim. As for
Stein’s newly minted argument about forfeiture, this
should have been raised at Stein’s initial sentencing
in district court and was not, nor was it raised on appeal the first time around. Thus we will not revisit
that matter either. As for Stein’s claims about the resentencing itself, we are satisfied that the trial court
properly addressed our original concerns and affirm
its judgment as to the amount of the loss and the restitution order.
As for the calculation of actual loss, Stein says that
the evidence was insufficient to establish causation.
See Stein, 846 F.3d at 1152 (explaining that the sentencing guideline at issue, U.S.S.G. § 2B1.1, “incorporates and requires both factual or ‘but for’ causation
and legal or foreseeable causation” (quoting United
States v. Evans, 744 F.3d 1192, 1196 (10th Cir.
2014))). The trial court’s calculation, he argues, was
neither sufficiently supported by evidence of reliance
(but-for causation), nor did it properly account for intervening events (legal causation).
“The government bears the burden of proving by a
preponderance of the evidence actual loss attributable
to the defendant’s conduct.” Id. Moreover, the district
court’s loss calculation “may be an estimate so long as
it is based on reliable and specific evidence rather
than mere speculation.” Id. at 1156 (quotation omitted). More particularly, “the government must show

8a
that the investors relied on Mr. Stein’s fraudulent information to satisfy the ‘but for’ causation requirement.” Id. at 1153. “A district court’s determination
that a person or entity was a victim for purposes of
loss calculation is an interpretation of the guidelines,
so we review it de novo.” Id. at 1151. The government
need not offer “individualized proof of reliance for
each investor”; rather, the government can “offer specific circumstantial evidence from which the district
court may reasonably conclude that all of the investors relied on the defendant’s fraudulent information.” Id. at 1153–54.
After reviewing Dr. Becker’s testimony on remand, we are satisfied that the government has met
its burden of establishing investor reliance by a preponderance of the evidence. Among other things, Dr.
Becker testified that returns for Signalife stock were
18% higher than would be expected (that is, an abnormal return) on September 25, 2007, when the company issued a fraudulent press release. And, further,
there was an abnormal negative return of -9% on August 15, 2008 -- the date on which Signalife’s 10-Q
made its order cancellations public. Moreover, there
was an abnormal negative return of -12.7% following
an April 2008 conference call during which Signalife
failed to provide additional information on pending
orders despite having promised to do so. Dr. Becker
also explained that Signalife generated no revenue
from 2001 through 2005, and it generated less than
$200,000 in revenue in 2006. She found it likely that
the fraudulent purchase orders promising millions in

9a
new sales in 2007 would have induced investor reliance, since “investors would have been wondering
about overall market demand for Signalife’s product.”
The district court did not just take the government’s word as gospel; it required the government to
recalculate its proposed loss amount after removing
from consideration those investors who sold their
stock before Signalife issued its 10-Q in August. This
recalculation cut the government’s proposed loss
amount in half, to $1.03 million. All told, and as we
instructed in the earlier opinion, the district court relied on “specific circumstantial evidence” to reasonably conclude that the investors in fact relied on Stein’s
fraudulent information. Id.
Stein’s primary argument on this matter is that
Signalife’s stock price dropped significantly following
an investor call in April 2008. He theorizes that because this drop occurred before Signalife made the order cancellations public in its August 2008 10-Q, the
bulk of investor loss was not due to his fraud. Dr.
Becker’s testimony answered the argument this way:
investors were expecting updates on outstanding orders at this April investor call, and Signalife’s failure
to provide updates created “considerable uncertainty
as to whether Signalife would receive any revenue
from the false purchase orders.” Indeed, Stein’s own
expert conceded that a company’s failure to provide
an anticipated update could lead to a corrective drop
in stock price.
Stein also claims that the lack of market efficiency
for Signalife stock undermines a finding of investor
reliance. On this record, we disagree. For one thing,

10a
the panel’s majority opinion in Round I only required
“specific circumstantial evidence from which the district court may reasonably conclude that all of the investors relied on the defendant’s fraudulent information.” Id. We did not require the government to establish market efficiency. We add that Stein’s expert
conducted a statistical study in the past without establishing market efficiency. Even in the absence of
establishing market efficiency, the district court did
not err in finding investor reliance.2
Next, Stein argues that the district court failed to
properly evaluate proximate cause because it did not
account for intervening events. A district court’s determination of proximate cause “is part of the court’s
determination of the amount of loss involved in the
offense and, thus, is reviewed only for clear error.” Id.
at 1151. “We will overturn a court’s loss calculation
under the clear-error standard where we are left with
a definite and firm conviction that a mistake has been
committed.” Id. (quoting United States v. Campbell,
765 F.3d 1291, 1302 (11th Cir. 2014)). “There is ‘no
clear error in cases in which the record supports the
district court’s findings.’” United States v. Rodriguez,
751 F.3d 1244, 1255 (11th Cir. 2014) (quoting United
States v. Petrie, 302 F.3d 1280, 1290 (11th Cir. 2002)).

Stein separately argues that the district court erred because it
failed to analyze reliance for each of the 616 investors at an individualized level. But the prior panel expressly ruled that the
district court need not engage in an individualized analysis “in
cases such as this one involving numerous investors,” where
identifying “individualized proof of reliance for each investor is
often infeasible or impossible.” Stein, 846 F.3d at 1153.

2

11a
On this record, we can discern no clear error. The
prior panel instructed the district court to consider
whether “intervening events affected Signalife’s stock
price during the fraudulent period.” Stein, 846 F.3d at
1156. First, in order to quantify the effect of market
movements during the 2008 financial downturn, Dr.
Becker conducted a statistical analysis which measured any correlation between the market and Signalife stock. Dr. Becker explained that “if the market
downturn caused Signalife’s stock price declines,” she
“would expect to observe that Signalife’s stock price
changes were positively correlated with changes in
the overall market during that period.” After conducting a number of tests, however, Dr. Becker found that
“Signalife’s stock price was neither sensitive to
changes in the market nor sensitive to changes in its
industry during the relevant period,” and she concluded that there was “no evidence that Signalife’s
stock price decline during the relevant period was
caused by the market downturn in 2007 and 2008.”
The district court accepted Dr. Becker’s methodology
and found her expert opinion to be “credible and reliable.” Based on her findings, the trial court determined that intervening events did not affect the actual loss figures proposed by the government. The record supports that finding.
The prior panel also instructed the district court
on remand to specifically consider the impact of short
sales during the relevant time period, Stein, 846 F.3d
at 1156, and on remand, Dr. Becker presented evidence that short sales of Signalife stock were lower
than that of the market at large. Between January
and August 2008, one academic study found that, for

12a
350 randomly selected stocks listed on the New York
Stock Exchange, short sales represented 39.2% of
those stocks’ overall trading volume. Over that same
period, however, short sales represented only 26.6%
of Signalife’s overall trading volume. Dr. Becker also
determined that most of the declines in Signalife’s
stock occurred during periods of relatively low shortselling activity. Thus, she concluded that “short selling volume did not have a statistically significant impact on Signalife’s stock price during the relevant period.”
Stein’s arguments to the contrary are without
merit. He claims that the district court “did not address” intervening events at all, and that “the district
court ignored . . . extensive defense evidence concerning the effect of short-selling and the 2008 stock market decline on the price of Signalife stock.” The record
tells a different story. First off, the district court recognized that it had to take intervening events into account; it said that its loss calculation was based on the
“inflated value of [Signalife’s] stock attributable to the
fraudulent misrepresentations.” The district court
was engaged throughout Stein’s resentencing hearing, repeatedly inquiring about the mechanics of short
selling. The resentencing hearing also featured extensive discussion about the financial downturn of 2008
and the use of various methodologies to control for its
effect on stock prices. After considering this evidence,
the district court reasonably credited Dr. Becker’s testimony and adopted her methodology, again describing both as “credible,” “competent,” and “reliable.”
Stein’s argument boils down to the claim that the
district court should have credited his own expert and

13a
rejected the opinion of Dr. Becker. Our case law, however, is unambiguous: the district court frequently
must choose between dueling experts, and if that decision is reasonably based on evidence found in the
record, the choice is not clear error. See Knight v.
Thompson, 797 F.3d 934, 942 (11th Cir. 2015) (allowing the district court to “weigh competing expert testimony” so long as it does “not arbitrarily ignore” either expert); Bottoson v. Moore, 234 F.3d 526, 534
(11th Cir. 2000) (“When there is conflicting testimony
by expert witnesses, as here, discounting the testimony of one expert constitutes a credibility determination, a finding of fact.”). The district court reasonably relied on evidence and analysis provided by Dr.
Becker, a qualified expert who had earlier served as
the acting division director and chief economist of the
SEC’s Division of Economic and Risk Analysis. There
was no clear error in choosing to rely on Dr. Becker.
Thus we affirm the district court’s calculation of loss.3

Stein makes one additional argument: his expert testified that
the August 15 10-Q affected losses stemming from the fraud because this disclosure included the fact that there was a large
quarterly loss, and that Signalife for the first time reported negative stockholder equity. Stein’s expert thus reduced the losses
attributable to fraud by two-thirds, but he admitted he had “no
basis” for that figure. The government convincingly argued that
these pieces of negative news were inherently tied to the fraud
and were not properly considered intervening. Signalife was
forced to back out $5 million in fraudulent sales due to order
cancellations, and it is not surprising that reversing $5 million
in revenue would lead to a negative impact on the company’s balance sheet. Again, the district court did not clearly err by rejecting Stein’s argument.

3

14a
III.
Stein’s remaining due process and forfeiture
claims fall outside the scope of the limited remand in
this case. The district court properly rejected them.
We start with hornbook law: “A trial court, upon receiving the mandate of an appellate court, may not alter, amend, or examine the mandate, or give any further relief or review, but must enter an order in strict
compliance with the mandate.” Piambino v. Bailey,
757 F.2d 1112, 1119 (11th Cir. 1985); see also United
States v. Tamayo, 80 F.3d 1514, 1520 (11th Cir. 1996)
(“[A] district court when acting under an appellate
court’s mandate, ‘cannot vary it, or examine it for any
other purpose than execution; or give any other or further relief; or review it, even for apparent error, upon
a matter decided on appeal; or intermeddle with it,
further than to settle so much as has been remanded.’” (quoting Litman v. Mass. Mut. Life Ins.
Co., 825 F.2d 1506, 1510–11 (11th Cir. 1987) (en
banc))). The only remaining question is whether Stein
can establish any exceptions to this basic rule. He has
not done so.
A.
Starting then with Stein’s due process claim, the
prior panel had already heard and squarely rejected
Stein’s argument that the government knowingly relied on false testimony. Stein, 846 F.3d at 1147–50.
Stein’s request for additional review falls outside of
our limited mandate and is barred by the law of the
case doctrine, which “operates to preclude courts from
revisiting issues that were decided explicitly or by
necessary implication in a prior appeal.” Schiavo ex

15a
rel. Schindler v. Schiavo, 403 F.3d 1289, 1291 (11th
Cir. 2005) (per curiam). There are only three exceptions to this doctrine: if “(1) the evidence on a subsequent trial was substantially different, (2) controlling
authority has since made a contrary decision of the
law applicable to the issue, or (3) the previous decision
was clearly erroneous and would work a manifest injustice.” Westbrook v. Zant, 743 F.2d 764, 768–69
(11th Cir. 1984).
Stein first offers what he characterizes as new evidence of government wrongdoing, and claims the
first exception to the law of the case doctrine. But the
only new evidence he references in this appeal -- a
declaration by Signalife customer Thomas Tribou -was submitted in a “supplement” to his original Rule
33 motion for a new trial. That supplement was submitted nearly two years after Stein’s motion (and five
years after the verdict). A motion under Rule 33 based
on new evidence must be filed within three years of
the verdict. Fed. R. Crim. P. 33(b)(1). Tribou’s declaration was untimely. Stein has pointed us to no explanation for his tardiness, nor can we construe this late
filing to be “linked” to the original motion, as Stein
urges. Allowing new evidence to be shunted into an
old Rule 33 petition at any time simply by calling it a
“supplement” would eviscerate the prescribed period
for making such filings. The district court did not err
in denying Stein’s new trial motion based on evidence
found within the supplement.
But even if we were to consider the contents of this
supplement, and even if the evidence within it were
newly discovered, we would conclude that this “new
evidence” is immaterial. In his declaration, Tribou

16a
avers that he paid Signalife for goods he expected to
receive. But the parties already stipulated to that fact
at trial. The declaration does not speak to the government’s theory of the case: that Stein fabricated details
within the purchase orders at issue. Indeed, Tribou
concedes in his declaration that the order form he
filled out remained “blank except for the number of
units and the cost.” The declaration does not contradict the government’s theory that Stein supplied
phony order details.
Stein also claims that the prior panel clearly erred
when it rejected his due process claim, and that this
result would work a manifest injustice, qualifying
him for the third exception to the law of the case doctrine. Westbrook, 743 F.2d at 768–69. Stein argues it
was clear error to require a showing that the government suppressed evidence or capitalized on false testimony in order to prevail on a Giglio claim.
We disagree. For most of the statements at issue,
the panel could not find sufficient evidence that the
government knowingly relied on false testimony in
the first place. Stein, 846 F.3d at 1150. For the small
subset of statements that remain, the panel determined, after citing to our binding precedent, that
Stein failed to show how the government either suppressed or capitalized on allegedly false testimony. Id.
This conclusion was not clearly erroneous.
All told, Stein has pointed us to no new evidence
or law, nor has he established that the panel’s rejection of his due process claims was clearly erroneous or
manifestly unjust. The law of the case doctrine ap-

17a
plies. There was no basis for the district court to consider the issue on remand, and no grounds for us to
reconsider the matter today.
B.
Finally, Stein says that the district court’s forfeiture order is improper. He claims that the entire forfeiture calculation was unsupported by the evidence,
and also that a subset of the order relying on the theory of joint and several liability is invalid in light of
Honeycutt v. United States, 137 S. Ct. 1626 (2017).
Stein failed to make these arguments before the district court during his original sentencing, nor did he
raise them on his initial appeal with this Court. But
he argues, nevertheless, that he has preserved these
claims because the district court entered an amended
judgment on remand; thus, the court was free to reconsider all sentencing issues from scratch.
We disagree. Stein misapprehends the basic goal
of the mandate rule: to discourage precisely this type
of inefficient, piecemeal litigation. See, e.g., Litman,
825 F.2d at 1511 (explaining that the doctrine “operates to create efficiency, finality and obedience within
the judicial system”). As we have emphasized, when
“the appellate court issues a limited mandate,” the
district court “is restricted in the range of issues it
may consider on remand.” United States v. Davis, 329
F.3d 1250, 1252 (11th Cir. 2003) (per curiam); see also
United States v. Mesa, 247 F.3d 1165, 1170–71 (11th
Cir. 2001) (concluding that an argument regarding a
downward sentencing adjustment fell outside the
scope of remand, because the limited mandate “did
not vacate [the defendant’s] sentence in its entirety”).

18a
The remand here was limited, and those limitations were expressed clearly. We determined that the
district court erred in only two respects, both specific
to its calculation of loss: it leaned on insufficient proof
of reliance, and it failed to determine whether intervening events caused Signalife’s stock to drop. Stein,
846 F.3d at 1140. We remanded “so that the district
court can remedy these errors,” and we provided specific “instructions to calculate anew the amount of loss
for purposes of U.S.S.G. § 2B1.1(b)(1) and restitution
under the MVRA.” Id. at 1140, 1156 (emphasis
added).
Yet Stein attacks the forfeiture order, which is unrelated to recalculation of the loss amount. Because
his claim plainly falls outside the scope of our limited
remand, and because he failed to raise this issue in
his first appeal, the law of the case doctrine applies to
this claim as well. See Piambino, 757 F.2d at 1120
(“The ‘mandate rule,’ as it is known, is nothing more
than a specific application of the ‘law of the case’ doctrine.”). As we have explained:
While the law-of-the-case doctrine has several
arms, the only one relevant here deals with
lower court rulings that have not been challenged on a first appeal . . . . [A] legal decision
made at one stage of the litigation, unchallenged in a subsequent appeal when the opportunity existed, becomes the law of the case for
future stages of the same litigation, and the
parties are deemed to have waived the right to
challenge that decision at a later time.

19a
United States v. Escobar-Urrego, 110 F.3d 1556, 1560
(11th Cir. 1997) (citation and quotation omitted); see
also Mesa, 247 F.3d at 1171 n.6 (“Had [the defendant]
raised this issue in his first appeal, he might have
been entitled to some measure of relief on ‘plain error’
review. By failing to appeal the question at that time,
he, however, abandoned this argument. And the district court, on remand, was not required to consider it
when our mandate did not require a de novo resentencing.”).
The law of the case doctrine thus applies to Stein’s
previously unraised forfeiture argument attacking
the entirety of the order, and none of the narrow exceptions to the doctrine apply to this claim. Nothing
prevented Stein from raising this claim in district
court at his original sentencing. He could have raised
the claim before our Court, too, during his first appeal, subject to plain error review. He points to no new
evidence or law that would excuse his failure to raise
the issue, nor to any clear error or manifest injustice.
Since no exception to the law of the case doctrine can
be found, no reversible error is presented by the trial
court’s refusal to grant Stein’s late argument. See
Mesa, 247 F.3d at 1171.
Stein’s argument attacking joint and several liability fares no better. Stein points us to the Supreme
Court’s decision in Honeycutt v. United States as an
intervening change in law that justifies setting aside
that portion of the forfeiture order. Again, we are unpersuaded. Not just any change in law qualifies as an
exception to the law of the case doctrine. Rather, we
demand an “intervening change in the controlling
law” that “dictates a different result.” Grayson v.

20a
Warden, Comm’r, Ala. DOC, 869 F.3d 1204, 1231
(11th Cir. 2017) (quoting Piambino, 757 F.2d at 1120).
Honeycutt does not fit this bill.
Honeycutt dealt with 21 U.S.C. § 853, a forfeiture
statute specific to drug crimes. Section 853 allows for
the forfeiture of drug-related proceeds which “the person obtained, directly or indirectly.” 21 U.S.C.
§ 853(a)(1). The Supreme Court found joint and several liability inappropriate under § 853 largely because of the requirement that the defendant “obtain”
the proceeds; as the Court explained, “[n]either the
dictionary definition nor the common usage of the
word ‘obtain’ supports the conclusion that an individual ‘obtains’ property that was acquired by someone
else.” Honeycutt, 137 S. Ct. at 1632.
By contrast, the forfeiture statutes at issue here,
18 U.S.C. §§ 981(a)(1)(C) and 982(a)(1), are not related to drug crimes, nor do they use the word “obtain.” Further, unlike § 853’s focus on proceeds “the
person” obtained, these statutes reference more
broadly the proceeds or property “traceable to a violation” or “involved in [an] offense.” 18 U.S.C.
§§ 981(a)(1)(C), 982(a)(1). Given these differences,
and understanding the importance that the Supreme
Court placed on language specific to § 853 in reaching
its conclusion, we cannot say that Honeycutt qualifies
as an intervening change in law that dictates a result
for the statutes here.
Rather, all that Honeycutt dictates for our purposes is to undertake a close examination of the text
when confronted with a question of statutory interpretation. We certainly agree with that premise. But

21a
those same tools of interpretation that the Supreme
Court used in Honeycutt were available to Stein long
before that decision was published. Honeycutt was
not an intervening change in law in that respect; it
“was simply a matter of statutory interpretation” that
“did not announce a new constitutional right or overturn any Supreme Court precedent.” United States v.
Bane, 948 F.3d 1290, 1297 (11th Cir. 2020). Stein
could have just as easily advocated against joint and
several liability in the same way Honeycutt found persuasive: by urging “an interpretation of a statute that
is consistent with its ordinary meaning and structure.” Id. Honeycutt’s use of interpretive techniques
specific to language in § 853 does not amount to an
intervening change in controlling law that dictates a
result with respect to 18 U.S.C. §§ 981(a)(1)(C) and
982(a)(1).
AFFIRMED.

22a
APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 11-80205-CR-MARRA
UNITED STATES OF AMERICA,
Plaintiff,
vs.
MITCHELL J. STEIN,
Defendant.
ORDER
THIS CAUSE is before the Court upon Defendant's Motion to Dismiss Indictment, or alternatively,
for Disclosure of Grand Jury Materials, for an Evidentiary Hearing and for a New Trial [DE's 479 and
481], Defendant's Motion for Order Directing the
Government to Review and Produce Files and Request for Hearing on this Motion [DE 510], and Defendant's Motion to Vacate the Forfeiture Order and
Issue a New Forfeiture Order at the Time of Resentencing [DE 524]. This Court having reviewed the
pertinent portions of the record and being duly advised in the premises, it is hereby
ORDERED and ADJUDGED that the Motions are
DENIED.
DONE and ORDERED in West Palm Beach, Florida, this 28th day of August, 2018.

23a
KENNETH A. MARRA
UNITED STATES DISTRICT JUDGE
Copies provided to:
All counsel

24a
APPENDIX C
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 14-15621
D.C. Docket No. 9:11-cr-80205-KAM-1
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
versus
MITCHELL J. STEIN,
Defendant - Appellant.
Appeal from the United States District Court
for the Southern District of Florida
(January 18, 2017)
Before: WILLIAM PRYOR and JILL PRYOR, Circuit
Judges, and STORY,* District Judge.
JILL PRYOR, Circuit Judge:
After a two-week trial, Mitchell Stein, a lawyer,
was convicted of mail, wire, and securities fraud
based on evidence that he fabricated press releases
and purchase orders to inflate the stock price of his
client Signalife, Inc., a publicly-traded manufacturer
of medical devices. The district court sentenced Mr.
Stein to 204 months’ imprisonment, over $5 million in

25a
forfeiture, and over $13 million in restitution. Mr.
Stein appeals his conviction and sentence.
Regarding his conviction, Mr. Stein argues, among
other points, that the government failed to disclose
Brady material1 to the defense before trial and knowingly relied on false testimony to make its case. As regards his sentence, Mr. Stein argues that the district
court erred in calculating actual loss for the purposes
of the Mandatory Victims Restitution Act of 1996
(“MVRA”), 18 U.S.C. § 3663A, and § 2B1.1 of the
United States Sentencing Guidelines. In particular,
he argues that in estimating actual loss the district
court erroneously presumed that all purchasers of
Signalife stock during the period when the fraud was
ongoing relied on false information Mr. Stein promulgated. He also argues that the district court failed to
take into account other market forces that likely contributed to the investors’ losses.
After careful consideration of the parties’ briefs
and with the benefit of oral argument, we affirm Mr.
Stein’s conviction but vacate his sentence. This opinion proceeds in three parts. We first provide background regarding Mr. Stein’s fraudulent scheme, his
subsequent indictment, his pretrial and post-trial motions, and his sentencing. Second, we address and reject Mr. Stein’s challenges to his conviction. Mr. Stein
identified only one potential Brady document, and it
contained no information favorable to him and was
accessible through reasonable diligence before trial.
And, he failed to identify any suppressed material or
1

Brady v. Maryland, 373 U.S. 83 (1963).

26a
any materially false testimony on which the government relied, purportedly in violation of Giglio.2
Third, with respect to sentencing, we review the
district court’s actual loss calculation. We agree with
Mr. Stein that to establish an actual loss figure under
the guidelines or the MVRA based on investors’
losses, the government must prove that, in deciding
to purchase Signalife stock, investors relied on the
fraudulent information Mr. Stein disseminated. The
district court found that more than 2,000 investors relied on Mr. Stein’s fraudulent information, but the
only evidence supporting this finding was the testimony of two individuals that they relied on Mr.
Stein’s false press releases and generalized evidence
that some investors may rely on some public information. This evidence was insufficient to permit reliance to be inferred for over 2,000 investors. Accordingly, the district court erred in calculating an actual
loss figure based on the losses of all these investors.
The district court also failed to determine whether intervening events caused the Signalife stock price to
drop and, if so, whether these events were unforeseeable such that their effects should be subtracted from
the actual loss figure. We remand so that the district
court can remedy these errors.
I. BACKGROUND
A. The Fraudulent Scheme
The evidence adduced at trial—including the testimony of Mr. Stein’s two co-conspirators, Martin
2

Giglio v. United States, 405 U.S. 150 (1972).

27a
Carter and Ajay Anand—supported the following
facts. In an effort to inflate artificially the value of
Signalife stock, Mr. Stein drafted three press releases
and three corresponding purchase orders touting
more than $5 million in bogus Signalife sales.3 The
fraudulent period began on September 20, 2007, when
Mr. Stein sent the first false press release to John
Woodbury, Signalife’s securities lawyer, with instructions to publish it. The press release reported that
Signalife had sold $1.98 million worth of its products.
Mr. Stein represented that the press release was
“backed up by a purchase order.” Trial Tr., Doc. 240
at 59.
Mr. Woodbury lacked any independent knowledge
of the truth of the statements in the press release. He
published it that day anyway, though, because Mr.
Stein had told him that he and Signalife’s Chief Executive Officer, Lowell T. Harmison, were traveling together visiting potential clients, and Mr. Woodbury
believed that this sale was the fruit of those efforts.
Doc. 240 at 59.4 Mr. Woodbury lacked any independent knowledge of the truth of the statements in the
Signalife was formerly known as Recom Managed Systems,
Inc., and later known as Heart Tronics, Inc. Mr. Stein’s wife at
the time of the false purchase orders, Tracey Hampton-Stein,
was the founder of Signalife and the largest single Signalife
shareholder. Thus, Mr. Stein stood to gain directly from the
stock’s inflated price.

3

4

“Doc.” refers to the numbered entry onto the district court’s
docket in this case. The trial transcript is found at Doc. 239
through Doc. 248.

28a
press release. He published it that day anyway,
though, because Mr. Stein had told him that he and
Signalife’s Chief Executive Officer, Lowell T.
Harmison, were traveling together visiting potential
clients, and Mr. Woodbury believed that this sale was
the fruit of those efforts.
A few days later, Mr. Stein emailed Mr. Woodbury
a second press release about an additional $3.3 million in sales and represented that Mr. Harmison had
approved the press release. Mr. Woodbury published
the release the next day despite lacking any supporting documentation.
Mr. Stein emailed Mr. Woodbury a third press release about two weeks later. The press release reported an additional $551,500 in sales orders. Mr.
Woodbury issued the release early the next morning,
again without supporting documentation.
Mr. Woodbury later asked Mr. Stein for additional
information regarding the sales that were described
in the press releases. In response, Mr. Stein sent Mr.
Woodbury three purchase orders. None of these purchase orders provided an address for shipment.
Tracey Jones, Mr. Harmison’s assistant, maintained
that she “never received any backup or anything on”
the purchase orders, and thus she considered them
“phantom purchase orders.” Doc. 241 at 117.
The first purchase order, dated September 14,
2007, reflected an order by a company called Cardiac
Hospital Management (“CHM”). The order reflected a
sale of $1.93 million worth of product and noted a
$50,000 deposit. The signature block showed “Cardiac
Hospital Management” and an illegible signature

29a
without a name. A week after the date of the purchase
order, Thomas Tribou, a consultant who had worked
with Signalife, paid Signalife $50,000 for goods he expected to receive.
The second and third purchase orders, dated September 24, 2007 and October 4, 2007, respectively, reflected sales to a company called IT Healthcare. One
order reflected a sale of products at a cost of $3.3 million and noted a $30,000 deposit. The other reflected
a sale with a “net due” amount of $551,500.
The facts of these purchase orders resurfaced several times. Mr. Harmison incorporated information
about them in a March 2008 memorandum to Signalife’s auditors. Likewise, Signalife filed reports with
the Securities and Exchange Commission (“SEC”)
that detailed these orders. According to Mr. Woodbury, who oversaw the drafting of the SEC filings, Mr.
Stein was the sole source of information about the
purchase orders and was intimately involved in the
drafting process.
Mr. Stein used the help of his personal assistant,
Mr. Carter, and a Signalife contractor, Mr. Anand, to
make the fake purchase orders appear legitimate. For
example, Mr. Stein gave Mr. Carter a template to create bogus letters requesting a change of shipment address, one for IT Healthcare and another for CHM.
Mr. Carter drafted a letter ostensibly from a man
named Yossie Keret of IT Healthcare requesting that
products be delivered to an address in Israel that Mr.
Carter made up. Mr. Carter also prepared a letter appearing to come from CHM that asked for products to
be delivered to an address in Tokyo, Japan. This letter

30a
purportedly was signed by “Toni Nonoy.” Mr. Carter
never spoke with Yossie Keret, Toni Nonoy, or anyone
at IT Healthcare or CHM; indeed, he had no idea
whether the companies or the individuals actually existed. He believed, however, that Mr. Stein had fabricated these names.
Mr. Stein directed Mr. Carter to help him with the
fraud in other ways as well. Mr. Stein asked Mr.
Carter for two numbers he could use as fax numbers
for purchase confirmation letters from Yossie Keret
and Toni Nonoy. Mr. Carter provided Mr. Stein with
two numbers unaffiliated with either company or person. Then, in June 2008, Mr. Stein told Mr. Carter to
fabricate a letter from Yossie Keret purporting to cancel IT Healthcare’s orders. Mr. Carter did as he was
told and sent the letter to Mr. Woodbury. At one point,
Mr. Stein arranged for Mr. Carter to travel to Israel
ostensibly to find customers for Signalife even though
Mr. Carter had no business contacts there. On another occasion, Mr. Stein sent Mr. Carter to Japan
with a sealed envelope in a plastic bag, instructing
him to mail the envelope back to the United States
while wearing gloves and then return home the same
day.
Mr. Stein similarly relied on Mr. Anand for help in
perpetrating the fraud. Once Mr. Stein asked Mr.
Anand to travel to Texas to mail two IT Healthcare
purchase orders to Signalife. When Mr. Anand asked
whether the purchase orders were real, Mr. Stein responded that it did not matter. Mr. Anand declined to
help, but later, on Mr. Stein’s request, he agreed to
draft two letters that would appear to come from Yossie Keret on behalf of IT Healthcare. The first letter

31a
requested a shipping address change to an Israeli address. The second letter cancelled the Signalife order.
Mr. Anand sent these letters to Mr. Stein and Mr.
Harmison.
Mr. Stein also used Carter and Anand to take
money or stock from Signalife. At Mr. Stein’s direction, in January 2008, Mr. Carter executed an agreement with Signalife to provide consulting services,
none of which he actually provided or was capable of
providing. Pursuant to this agreement, Mr. Stein funneled money and Signalife stock from Signalife
through Mr. Carter to himself. Mr. Stein also directed
Mr. Carter to buy and sell Signalife stock and transfer
most of the proceeds to him. Likewise, at Mr. Stein’s
direction, Mr. Anand established “The Silve Group,”
ostensibly to sell Signalife products in India. But Mr.
Anand sold only one unit (in Mexico). Mr. Stein nonetheless arranged for Signalife to pay Mr. Anand more
than one million shares for his work. Mr. Anand then
gave Mr. Stein a “kickback . . . [f]or the sweet deal [he]
got from Mr. Stein.” Doc. 243 at 71.
On August 15, 2008, Signalife filed a Form 10-Q
for the second quarter of 2008, which described the
cancellation of an IT Healthcare purchase order. (GX
159 at 22.) This was the first public disclosure arguably signaling to stock market participants that Signalife’s stock was overvalued based on the IT
Healthcare purchase order, and thus, as the district
court found, marked the end of the fraudulent period.

32a
B. Procedural Background
1. The Investigation and Indictment
The SEC began investigating Signalife in 2009.
During its investigation, the SEC amassed a database
of about 200 million records produced by Signalife. In
2010, the United States Department of Justice
(“DOJ”) began a criminal investigation of Mr. Stein.
As a result of the DOJ’s investigation, a grand jury
indicted Mr. Stein on charges of money laundering;
mail, wire and securities fraud; conspiracy to commit
mail and wire fraud; and conspiracy to obstruct justice. The indictment also charged that Mr. Stein obstructed justice by giving false testimony to SEC investigators. Mr. Stein’s two co-conspirators, Mr.
Carter and Mr. Anand, also were indicted. Both pled
guilty to conspiracy charges and testified against Mr.
Stein at trial.
2. The Motion to Compel
Before trial, Mr. Stein sent the government nine
letters requesting over 100 categories of documents,
including documents in the SEC’s files. The DOJ refused to produce information that was “not in the possession of or known to the prosecution,” which included the documents in the SEC’s files. Mot. Compel
Ex. B, Doc. 41-2 at 3. Mr. Stein responded with a motion to compel. The government opposed the motion,
arguing that the DOJ lacked control over the SEC and
that the DOJ and the SEC conducted no joint investigation. The magistrate judge denied the motion to
compel as to documents “in the sole custody of the
SEC, and which the DOJ is unaware of.” Doc. 63 at 2.

33a
3. The Pretrial Motion to Dismiss the Indictment
About two months before trial, at Mr. Stein’s direction, his attorney filed a motion to withdraw as
counsel, which was granted. Mr. Stein then filed a motion to proceed pro se. The court held a Faretta5 hearing and then granted Mr. Stein’s motion. During the
hearing, Mr. Stein learned that in the course of its investigation the DOJ had accessed a “very small subset” of documents in the SEC’s database, which the
DOJ had then provided to him. Tr. of Faretta Hrg.
Proceedings, Doc. 146 at 41. Based on this revelation,
Mr. Stein promptly filed a pro se motion to dismiss the
indictment, alleging the suppression of unidentified
“Brady material” in the SEC database. Mot. to Dismiss, Doc. 150 at 17-22. Mr. Stein also requested an
evidentiary hearing. The district court denied the motion, concluding, among other things, that the motion
was untimely and failed to identify any exculpatory
Brady material.
4. The Trial and Post-Trial Motions
The trial lasted two weeks. The jury returned
guilty verdicts against Mr. Stein on all charges.
Mr. Stein filed several post-trial motions, including two motions for new trial based on newly discovered evidence. The newly discovered evidence included, among other documents, a publicly-filed SEC
Form 8-K (“Exhibit X”) regarding an unrelated company whose Chief Financial Officer was named “Yossi
5

Faretta v. California, 422 U.S. 806 (1975).

34a
Keret.” Mot. for New Trial Ex. J, Doc. 264-10. Mr.
Stein alleged that Exhibit X was on the “SEC website.” See Mot. for New Trial, Doc. 264 at 9. Mr. Stein
argued this document proved that Yossie (with an “e”)
Keret, the man who purportedly signed the IT
Healthcare purchase orders, was a real person, contrary to the government’s representation at trial. He
contended that his conviction thus “was based on the
perjured testimony of key Government witnesses and
exclusion of crucial exculpatory and impeachment evidence as a result of prosecutorial misconduct.” Id. at
1; see also 2d Mot. for New Trial, Doc. 312 at 2, 8-9.
Mr. Stein also filed a motion for an evidentiary hearing on his motions for new trial and a motion to compel documents from the SEC database. The district
court summarily denied these motions.
A little more than a year after the trial, in an SEC
enforcement action against Signalife’s successor company, the SEC produced about two million documents
from its database. Within this collection, Mr. Stein
found a copy of Exhibit X, the publicly-available SEC
document containing the name “Yossi Keret.” Based
on this document, Mr. Stein filed a third motion for
new trial and accompanying motion for a hearing, arguing that the document was exculpatory and had
been withheld in violation of Brady.
The district court denied the third motion for a
new trial and the corresponding motion for an evidentiary hearing. The court found that there had been “no
showing that the person named ‘Yossi Keret’ in [Exhibit X was] the same person connected to the [IT
Healthcare purchase order confirmation and purchase order cancellation] upon which [Defendant’s

35a
convictions] . . . are based.” Doc. 388 at 2. The court
further found there was no evidence showing that the
prosecution team possessed this document and knowingly withheld it.
5. The Sentencing
Before Mr. Stein’s sentencing, the probation office
issued a presentence investigation report (“PSI”). Under the applicable Sentencing Guidelines, the PSI calculated a base offense level of 7 and recommended
several enhancements and one reduction. Relevant to
this appeal, the PSI recommended a 24-level increase
under U.S.S.G. § 2B1.1(b)(1)(M) based on a loss calculation of more than $50 million but less than $100 million. Mr. Stein objected to this proposed calculation of
loss, contending that there was no actual loss to any
investor.
The government proposed a method for calculating
actual loss coined the “buyer’s only” method, which
was based on actual purchase and sales data. Tr. of
Sentencing Proceedings, Doc. 429 at 30. Under this
method, the court would consider only “those customers who only purchased Signalife shares during the
fraudulent period,” defined as September 20, 2007
(the date of the first false press release) through August 15, 2008 (the date of Signalife’s SEC filing noting
that IT Healthcare had cancelled its purchase order).
Tr. of Sentencing Proceedings, Doc. 428 at 25. The
court would then “value the amount of those purchases . . . [and] subsequently subtract the value of
those shares as of the end of the fraudulent period.”
Id. at 42. The government identified 2,415 unique in-

36a
vestors who bought Signalife stock during the fraudulent period and subsequently lost a total of
$13,186,025.85.6
Mr. Stein objected to this method, contending that
the government needed to show both “but for” causation (reliance) and proximate causation (“that the
causal connection between the conduct and the loss is
not too attenuated”). Doc. 428 at 220. As regards “but
for” causation, Mr. Stein argued there was no evidence that the 2,415 investors actually relied on false
press releases or other fraudulent information promulgated by Mr. Stein. He noted that only one investor
testified at trial that he had relied on one of Mr.
Stein’s false press releases and only one investor provided a victim impact statement to the same effect.
Although Mr. Stein acknowledged that a number of
other investors provided victim impact statements, he
emphasized that none of these investors specified that
he or she relied on the false information he released.
The government responded that many of the victims’ impact statements showed they relied on press
releases generally (albeit not necessarily the specific
press releases Mr. Stein disseminated) in purchasing
Signalife stock. The government urged that this evidence was enough to infer reliance for all 2,415 investors identified. The government also relied on testimony that the only source for information about Signalife stock was press releases and public filings, and

The government proposed other methods for calculating actual
loss, but the district court declined to adopt them.

6

37a
at least some investors probably relied on this type of
information.
Regarding proximate cause, Mr. Stein argued that
the government needed to “take into account . . . extrinsic market factors.” Doc. 428 at 221. He noted that
other circuits require this and that the Sentencing
Guidelines specifically contemplate it. He identified
specific events unrelated to the fraud that he contended caused the stock price to decline during the
fraudulent period, including the 2008 financial crisis
and the rampant short selling of Signalife stock. Mr.
Stein urged the district court to reject the government’s actual loss calculation because it failed to
tease out these external market factors. The government responded simply, “The offense [Mr. Stein committed] was luring people in to invest in this stock. . .
. Did they then lose money? Of course. Was that reasonably foreseeable to Mr. Stein? Of course, it was.
That’s the Government’s position here, Your Honor.”
Id. at 242.
The district court adopted the buyer’s only method
over Mr. Stein’s objections. It concluded that there
was “sufficient evidence to demonstrate both reliance
and causation of damage to the shareholders.” Doc.
429 at 30. Based on over $13 million in actual loss, the
court applied a 20-level increase to Mr. Stein’s base
offense level. See U.S.S.G. § 2B1.1(b)(1)(K).7 The court
also imposed a 6-level enhancement because there
were more than 250 victims. See id. § 2B1.1(b)(2)(C).
Under the applicable 2012 Sentencing Guidelines, a loss of
more than $7 million but less than $20 million resulted in a 20level enhancement. U.S.S.G. § 2B.1.1(b)(1)(K).

7

38a
With other enhancements and reductions not at issue
here, Mr. Stein’s total offense level was 45, resulting
in an advisory guidelines sentence of life imprisonment. The district court found that this range was
“certainly way above what would be sufficient but not
greater than necessary to comply with the requirements of [18 U.S.C. §] 3553,” Doc. 429 at 70, and varied downward, sentencing Mr. Stein to 204 months’
imprisonment.
The government then filed a motion for judgment
of restitution, asking the district court to use the same
actual loss figure to award $13,186,025.85 to 2,415
Signalife investors. Mr. Stein waived his right to a
hearing but filed a response arguing, again, that the
government failed to prove reliance and proximate
cause. The district court rejected this argument and
granted the government’s motion. This appeal followed.
II. DISCUSSION
A. The Conviction Issues
Mr. Stein argues that the government violated
Brady and Giglio, and thus the district court erred in
denying his motions for a new trial. We review de novo
alleged Brady or Giglio violations. United States v.
Brester, 786 F.3d 1335, 1339 (11th Cir. 2015); United
States v. Jones, 601 F.3d 1247, 1266 (11th Cir. 2010).
We review the district court’s denial of a motion for
new trial for an abuse of discretion. United States v.
Vallejo, 297 F.3d 1154, 1163 (11th Cir. 2002). As explained below, we find no basis for vacating Mr.
Stein’s convictions.

39a
1. The Brady Claims
Mr. Stein first argues that the government’s failure to produce material, exculpatory evidence contained in the SEC’s database violated Brady. “[T]he
burden to show a Brady violation lies with the defendant, not the government . . . .” United States v. Esquenazi, 752 F.3d 912, 933 (11th Cir. 2014). To establish a Brady violation, Mr. Stein must show that:
(1) the government possessed favorable evidence to the defendant; (2) the defendant does
not possess the evidence and could not obtain
the evidence with any reasonable diligence; (3)
the prosecution suppressed the favorable evidence; and (4) had the evidence been disclosed
to the defendant, there is a reasonable probability that the outcome would have been different.
Vallejo, 297 F.3d at 1164.
Mr. Stein argues that the government violated
Brady by failing to disclose Exhibit X, a document
filed with the SEC showing that a person named
“Yossi Keret” (not Yossie with an “e”) was an officer of
a company unrelated to any of the players in this case.
According to Mr. Stein, this document suggests that
Yossie Keret, the man who purportedly signed the IT
Healthcare purchase orders, was a real person.8
The only other document Mr. Stein identifies as supporting a
Brady claim is a CHM change of address letter that Mr. Carter
purportedly created. Oddly, this letter showed Mr. Carter’s
wife’s uncle as the sender on behalf of CHM. It is unclear how
this document could be considered exculpatory, but in any event

8

40a
Mr. Stein’s argument fails for two reasons. First,
Exhibit X contains no information favorable to Mr.
Stein. Evidence is favorable to the accused for Brady
purposes if “‘it is either exculpatory or impeaching.’”
United States v. Naranjo, 634 F.3d 1198, 1212 (11th
Cir. 2011) (quoting Stephens v. Hall, 407 F.3d 1195,
1203 (11th Cir. 2005)). Exhibit X is neither. Contrary
to Mr. Stein’s contention, Exhibit X does not contradict Mr. Carter’s testimony that Yossie Keret was a
fabricated name and not an officer of IT Healthcare.
Not only is the name Yossi Keret on Exhibit X spelled
differently from the name Yossie Keret on some of Mr.
Stein’s fabricated documents, but also Exhibit X indicates that Yossi Keret is affiliated with a different
company, not IT Healthcare. Thus, the district court’s
conclusion that Mr. Stein had made “no showing that
the person [referenced in Exhibit X was] the same
person connected to the wires upon which [Defendant’s convictions] . . . are based,” Doc. 388 at 2, was
not erroneous. Mr. Stein failed to prove that Exhibit
X was exculpatory or impeaching; thus, this document
cannot be the basis of a Brady violation.
Second, even if Exhibit X were favorable to Mr.
Stein, he failed to show that he was unable to locate
it with reasonable diligence. “‘[T]he government is not
obliged under Brady to furnish a defendant with information which he already has or, with any reasonable diligence, he can obtain himself.’” United States v.
Valera, 845 F.2d 923, 928 (11th Cir. 1988) (quoting
United States v. Prior, 546 F.2d 1254, 1259 (5th Cir.
it cannot support a Brady violation because the government produced the letter to Mr. Stein before trial.

41a
1977)); see, e.g., United States v. Hansen, 262 F.3d
1217, 1235 (11th Cir. 2001) (holding that the government’s failure to disclose court opinions, which “were
all available through legal research,” does not violate
Brady). Mr. Stein conceded that Exhibit X was a publicly available document filed with a public agency.
Although in some cases a publicly available document
practically may be unobtainable with reasonable diligence, see, e.g., Milke v. Ryan, 711 F.3d 998, 1017-18
(9th Cir. 2013),9 Mr. Stein made no effort to establish
that this is such a case. In fact, Mr. Stein represented
that he located the document on the “SEC website.”
See Mot. for New Trial, Doc. 264 at 9. For these reasons, Mr. Stein failed to satisfy his burden of proving
a Brady violation based on Exhibit X.10
2. The Giglio Claims
Mr. Stein next argues that the government violated Giglio by knowingly relying on false testimony.
In Milke, the defendant’s postconviction team of “approximately ten researches . . . spent nearly 7000 hours sifting
through court records.” Milke, 711 F.3d at 1018. “The team
worked eight hours a day for three and a half months, turning
up 100 [relevant] cases . . . . Another researcher then spent a
month reading motions and transcripts from those cases to find
[the Brady material].” Id. The court held that no reasonably diligent lawyer could have found this material in time to use at
trial. Id.; see also United States v. Payne, 63 F.3d 1200, 1209 (2d
Cir. 1995) (rejecting the argument that “the government’s duty
to produce [an exculpatory document in its possession] was eliminated by that document’s availability in a public court file”).

9

10 The government also argued that Exhibit X was not in its possession for Brady purposes. Because we reject Mr. Stein’s Brady
argument on other grounds, we do not reach this issue.

42a
“Giglio error, a species of Brady error, occurs when
the undisclosed evidence demonstrates that the prosecution’s case included perjured testimony and that
the prosecution knew, or should have known, of the
perjury.” Ford v. Hall, 546 F.3d 1326, 1331 (11th Cir.
2008) (internal quotation marks omitted). Giglio also
applies where the prosecutor herself made “explicit
factual representations” to the court or “implicit factual representations to the jury,” knowing that those
representations were false. United States v. Alzate, 47
F.3d 1103, 1110 (11th Cir. 1995).
“To prevail on a Giglio claim, a [defendant] must
establish that (1) the prosecutor knowingly used perjured testimony or failed to correct what he subsequently learned was false testimony; and (2) such use
was material i.e., that there is any reasonable likelihood that the false testimony could have affected the
judgment.” Ford, 546 F.3d at 1331-32 (internal quotation marks and ellipses omitted); accord Guzman v.
Sec’y, Dep’t of Corr., 663 F.3d 1336, 1348 (11th Cir.
2011). “‘The could have standard requires a new trial
unless the prosecution persuades the court that the
false testimony was harmless beyond a reasonable
doubt.’” Guzman, 663 F.3d at 1348 (quoting Smith v.
Sec’y, Dep’t of Corr., 572 F.3d 1327, 1333-34 (11th Cir.
2009)). Thus, “Giglio’s materiality standard is more
defense-friendly than Brady’s.” Id. (internal quotation marks omitted).
In addition, because Giglio error is a type of Brady
violation, the defendant generally must identify evidence the government withheld that would have revealed the falsity of the testimony. See, e.g., Ford, 546
F.3d at 1331 (emphasizing that Giglio error “occurs

43a
when the undisclosed evidence demonstrates that the
prosecutor’s case included perjured testimony” (emphasis added) (internal quotation marks omitted)). In
other words, “[t]here is no violation of due process resulting from prosecutorial non-disclosure of false testimony if defense counsel is aware of it and fails to
object.” Routly v. Singletary, 33 F.3d 1279, 1286 (11th
Cir. 1994) (holding that because defense counsel was
aware that a false statement was subject to impeachment and yet failed to object to the statement, there
was no due process violation under Giglio). But where
the government not only fails to correct materially
false testimony but also affirmatively capitalizes on
it, the defendant’s due process rights are violated despite the government’s timely disclosure of evidence
showing the falsity. See DeMarco v. United States, 928
F.2d 1074, 1076-77 (11th Cir. 1991) (finding prosecutorial misconduct warranting a new trial despite no
suppression of evidence where the prosecutor not only
failed to correct false testimony, but also capitalized
on the false testimony in closing argument); United
States v. Sanfilippo, 564 F.2d 176, 178-79 (5th Cir.
1977) (same).
Mr. Stein identifies several categories of statements he contends were false, but none of them supports a Giglio violation, and only two merit discussion: (1) statements the prosecutor made to the court
and during his closing argument regarding Thomas
Tribou and (2) testimony of Ms. Jones and Mr. Woodbury about the bogus purchase orders.

44a
a. Thomas Tribou
Mr. Stein first argues that the government knowingly made false representations to the court about
Thomas Tribou—a Signalife consultant who paid the
company $50,000 shortly after the date of the CHM
purchase order—and then relied on that false representation in its closing argument in violation of Giglio. Specifically, Mr. Stein points us to two allegedly
false representations the government made to the district court and one made to the jury. This argument
fails because the government made no material false
representations.
Mr. Stein’s argument as it pertains to all three
representations arises out of his attempt near the end
of trial to admit into evidence a copy of an October 24,
2007 email from Signalife’s CEO’s administrative assistant, Ms. Jones, to Signalife’s certified public accountant, Norma Provencio, which was forwarded to
Signalife’s corporate counsel, Mr. Woodbury. The subject line of the email said, “[Fwd: Emailing: Tribou
Payment],” and in the body, Ms. Provencio noted, “Attached is the $50K deposit on the 9-14 purchase order.” Am. Resp. in Opp. to Def.’s Mots. for New Trial
Ex. 1, Doc. 298-1 at 37. The exhibit also included a
copy of the referenced September 27, 2007 check for
$50,000 to Signalife, apparently signed by Delores
Tribou out of an account shared with her husband,
Thomas. The check displayed the CHM purchase order number on the memo line, along with the words
“Tribou & Assoc.” Doc. 298-1 at 38.
Mr. Stein sought to use this exhibit to support the
inference that the September 14, 2007 CHM purchase

45a
order, which called for a $50,000 deposit, was legitimate. The government objected on the ground that
the email’s contents were hearsay. The district court
sustained the objection and noted that Mr. Stein
failed to authenticate the document. The court ultimately brokered the following stipulation: “On or
about September 27th, 2007, an individual named
Thomas Tribou paid Signalife $50,000 for goods he expected to receive.” Mr. Stein, through counsel, accepted this stipulation, which was presented to the
jury. Mr. Stein did not call Mr. Tribou as a witness.
After the district court sustained the government’s
hearsay objection, the government made two representations to the court that Mr. Stein argues were
false. First, the government represented that, based
on interviews Mr. Tribou previously had given to SEC
investigators, if Mr. Tribou were called to testify he
would say that although he paid $50,000 to Signalife,
he never received any product and was not a Signalife
reseller.11 Mr. Stein argues that this representation is
inconsistent with statements Mr. Tribou made to SEC
investigators admitting that he signed the CHM purchase order.
We reject this argument. Mr. Tribou’s statement
to SEC investigators that he signed the CHM purchase order in no way indicates he would have testified that he actually received Signalife products. Nor
The government also told the district court that Mr. Tribou
likely would testify that he had no connection with CHM and
that he agreed to Mr. Stein’s request to sign a blank purchase
order. Mr. Stein does not challenge these representations on appeal.

11

46a
does it show that Mr. Tribou considered himself a Signalife reseller. And, in any case, Mr. Tribou’s SEC testimony was, as Mr. Stein himself characterized it, “extremely inconsistent.” Doc. 247 at 55. On this record,
we cannot conclude that the prosecutor spoke falsely
when he told the district court how he believed Mr.
Tribou would testify at trial.
Second, on the district court’s request, the government privately telephoned Mr. Tribou and then relayed to the court and the defense the contents of that
telephone call, which, according to Mr. Stein, included
a false statement. The government told the court that
during the call Mr. Tribou never denied giving Signalife a $50,000 check, but he said that he was unfamiliar with Tribou & Associates and that he doubted he
wrote the purchase order number on the check. Mr.
Tribou previously had told an SEC investigator that
Tribou & Associates was his name “for consulting and
everything on [his] personal taxes.” 2d Mot. for New
Trial Ex. A, Doc. 312-1 at 8. Thus, Mr. Stein argues,
the government knew or should have known that Mr.
Tribou was lying about his unfamiliarity with Tribou
& Associates and yet relayed the lie to the court nonetheless.
We reject Mr. Stein’s argument about the second
representation for two reasons. First, Mr. Stein contends not that the prosecutor misrepresented what
Mr. Tribou told him on the call, but rather that the
prosecutor should have flagged for the court the inconsistency between what Mr. Tribou said on the call
and what he had said to SEC investigators in the past.
But it is well-established that “a prior statement that
is merely inconsistent with a government witness’s

47a
testimony is insufficient to establish prosecutorial
misconduct.” United States v. McNair, 605 F.3d 1152,
1208 (11th Cir. 2010) (collecting cases); accord Hays
v. Alabama, 85 F.3d 1492, 1499 (11th Cir. 1996) (holding that there was no due process violation arising out
of a witness’s inconsistent testimony where there was
“no showing that [the witness’s] later, rather than
earlier, testimony was false”).
Second, even if false, the government’s representation regarding Mr. Tribou was immaterial. A material misrepresentation occurs when there is any reasonable likelihood that the false testimony could have
affected the judgment. Guzman, 663 F.3d at 1348. Mr.
Stein argues that the representation influenced the
court’s decision to sustain the government’s objection
on hearsay grounds to the admission of the check and
the email. We disagree. The court sustained the objection before the government made the representations
about Mr. Tribou. Moreover, the court based its ruling
on hearsay grounds and Mr. Stein’s failure to authenticate the documents rather than anything Mr. Tribou
might say if called to testify. Mr. Stein fails to explain
how the government’s statements had any bearing on
this evidentiary decision, which Mr. Stein expressly
does not challenge on appeal.
The third allegedly false statement occurred during the government’s closing argument. The prosecutor told the jury that the CHM purchase order was “all
made up” and “fake,” statements Mr. Stein argues
constituted misrepresentations because Mr. Tribou
signed the purchase order and paid Signalife $50,000.
Doc. 248 at 34. But the prosecutor’s statement and
these facts are not mutually exclusive. The fact that

48a
Mr. Stein obtained Mr. Tribou’s signature and check
does not rule out the possibility that he also fabricated
the purchase order. Indeed, the government made
this argument in its rebuttal, stating that regardless
of any signatures Mr. Stein obtained, the purchase orders were fake. Moreover, the record contained overwhelming evidence that Mr. Stein fabricated supporting documentation for the purchase orders and used
arbitrary names for companies and individuals supposedly purchasing Signalife products. On this record, we cannot conclude that the government violated
Giglio with its characterization of evidence about the
CHM purchase order.12 See Maharaj v. Sec’y for Dep’t
of Corr., 432 F.3d 1292, 1313 (11th Cir. 2005) (“In the
Giglio context, the suggestion that a statement may
have been false is simply insufficient; the defendant
must conclusively show that the statement was actually false.”).
In sum, Mr. Tribou’s previous inconsistent statements to SEC investigators and the ambiguity regarding his role in signing the CHM purchase order
12 Mr. Stein also argues that the prosecutor misrepresented the
evidence when he asked the jury, “[I]f Tom Tribou, Thomas Tribou, is [CHM], [then] where’s Tom Tribou’s name, Thomas Tribou’s name [on the purchase order]? . . . Take a look closely . . . .
See if Thomas Tribou’s name appears on there.” Doc. 248 at 114.
Mr. Stein argues that Mr. Tribou’s name (in the form of his signature) does appear on the purchase order. But that was not the
point of the government’s argument. In fact, in closing, the government conceded that Mr. Stein may have obtained a signature
on the CHM purchase order. The point—which was true—was
that the purchase order did not identify Mr. Tribou as an officer
of CHM.

49a
and paying $50,000 to Signalife provide an insufficient basis for us to conclude that the government
knowingly relied on materially false testimony.
b. Jones and Woodbury
Mr. Stein next argues that (1) Mr. Harmison’s assistant, Ms. Jones, lied when she characterized the
three purchase orders as “phantom purchase orders”
simply because she lacked supporting documentation,
and (2) Signalife’s securities lawyer, Mr. Woodbury,
lied when he said he got all his information about the
purchase orders from Mr. Stein. Again, Mr. Stein relies on the October 24, 2007 email and the copy of the
$50,000 Tribou check, which was received by Ms.
Jones and Mr. Woodbury, as demonstrating these
lies. But Mr. Stein offers no argument that the prosecutor capitalized on the allegedly false testimony that
contradicts this evidence, which he needed to show because none of this evidence was suppressed.13 In fact,
the record shows that Mr. Stein located the email and
the check before trial and even produced them to the
government. In the absence of government suppression of the evidence, then, there can be no Giglio violation. See Ford, 546 F.3d at 1331; DeMarco, 928 F.2d
13 To be sure, the prosecutor mentioned in passing in his closing
argument that Ms. Jones referred to the purchase orders as
“phantom purchase orders,” but unlike in DeMarco, the prosecutor did not emphasize or capitalize on this statement by repeating it or making it the centerpiece of an argument for guilt. DeMarco, 928 F.2d at 1076-77 (noting that the prosecutor not only
adopted the false statement but also emphasized it in her jury
argument). Moreover, the prosecutor never mentioned Ms.
Jones’s statement that she received no backup for the purchase
orders, which was the material aspect of her testimony.

50a
at 1076. Accordingly, we reject Mr. Stein’s Giglio argument.14
3. Mr. Stein’s Remaining Arguments
Mr. Stein argues that the district court erred when
it denied (1) the third motion for new trial without
considering the alleged prosecutorial misconduct cumulatively and (2) the motions to compel discovery
and for an evidentiary hearing regarding the alleged
Brady and Giglio violations. We review these denials
for an abuse of discretion. See Vallejo, 297 F.3d at
1163 (motion for new trial); United States v. Schlei,
122 F.3d 944, 990 (11th Cir. 1997) (evidentiary hearing); Holloman v. Mail-Well Corp., 443 F.3d 832, 837
(11th Cir. 2006) (motion to compel discovery). Because
there were no Brady or Giglio violations, there was no
cumulative reversible error. See United States v.
Carter, 776 F.3d 1309, 1330 (11th Cir. 2015). And Mr.
Stein has failed to show how the district court’s decision not to hold a hearing and compel discovery was
an abuse of discretion.15 We find no basis for vacating
14

In support of his Brady and Giglio arguments, Mr. Stein filed
a motion for the Court to take judicial notice of portions of a transcript from a summary judgment hearing in the SEC enforcement action against him, Heart Tronics, Inc., and various other
defendants. We GRANT this motion but find nothing in the
transcript that changes our decision here.
In a footnote in his opening brief, buried within his Brady argument, Mr. Stein makes a passing reference to an alleged violation of Rule 16 of the Federal Rules of Criminal Procedure.
Such a passing reference, without any reasoned analysis whatsoever, is insufficient to preserve the argument on appeal. See
United States v. Jernigan, 341 F.3d 1273, 1283 n.8 (11th Cir.
2003) (deeming issue abandoned where defendant made only
15

51a
his conviction in Mr. Stein’s remaining arguments.
Accordingly, we affirm his conviction and move on to
his sentence.
B. The Sentencing Issues
Mr. Stein raises several challenges to his sentence,
only one of which warrants discussion. Mr. Stein asserts that the district court erred in calculating actual
loss for purposes of U.S.S.G. § 2B1.1(b)(1) and for restitution under the MVRA. The district court’s actual
loss calculation was premised on an estimate of losses
suffered by 2,415 investors in Signalife stock during
the fraudulent period. Mr. Stein argues that the actual loss calculation was too high because the court
(1) presumed, without an adequate factual basis, that
each investor relied on fraudulent information he disseminated and (2) failed to take into account intervening events that led to a decline in the price of Signalife
stock.16
“We review a district court’s interpretation of the
Sentencing Guidelines de novo, and the determination of the amount of loss involved in the offense for
clear error.” United States v. Maxwell, 579 F.3d 1282,
1305 (11th Cir. 2009). A district court’s determination
that a person or entity was a victim for purposes of
passing references to it in brief). Accordingly, we do not address
it. See id.
16 Mr. Stein also challenges the district court’s estimate of the
number of victims under U.S.S.G. § 2B.1.1(b)(2)(C), which resulted in an additional 6-level enhancement. This argument is
intertwined with Mr. Stein’s § 2B1.1(b)(1) argument, and thus
we do not address is separately.

52a
loss calculation is an interpretation of the guidelines,
so we review it de novo. United States v. Martin, 803
F.3d 581, 593 (11th Cir. 2015). A district court’s determination of proximate cause, however, is part of
the court’s determination of the amount of loss involved in the offense and, thus, is reviewed only for
clear error. Id. “We will overturn a court’s loss calculation under the clear-error standard where we are
left with a definite and firm conviction that a mistake
has been committed.” United States v. Campbell, 765
F.3d 1291, 1302 (11th Cir. 2014) (internal quotation
marks omitted).
First, we provide an overview of loss calculation
principles for purposes of the Sentencing Guidelines
and restitution under the MVRA. Then we consider
Mr. Stein’s arguments regarding reliance (factual
causation) and intervening events (legal causation).
1. Loss Calculation under the Guidelines
and the MVRA
Section 2B1.1(b)(1) of the Sentencing Guidelines
provides a table for determining the level of enhancement based on the loss attributable to the offense.
This loss calculation “serves as a proxy for ‘the seriousness of the offense and the defendant’s relative
culpability.’” Campbell, 765 F.3d at 1301 (quoting
U.S.S.G. § 2B1.1 cmt. background). In financial fraud
cases, the loss calculation often drives the sentence.
See, e.g., United States v. Olis, 429 F.3d 540, 545 (5th
Cir. 2005) (“The most significant determinant of [the
defendant’s] sentence is the guidelines loss calculation.”); United States v. Robles, No. CR 041594(B)SVW, 2015 WL 1383756, at *5 (C.D. Cal. Mar.

53a
19, 2015) (“[T]he loss calculation in this case is the
primary driver behind the Guidelines range—more
than doubling the offense level and tripling the suggested sentence . . . .”); United States v. Faulkenberry,
759 F. Supp. 2d 915, 928 (S.D. Ohio 2010) (“[T]he
harsh sentence recommended by the Guidelines is
primarily driven by the loss calculation, which increases [the defendant’s] Base Offense Level by 30
points.”).
There are two ways to measure loss under
U.S.S.G. § 2B1.1, actual and intended loss, and we are
instructed to take the greater of the two. U.S.S.G.
§ 2B1.1, cmt. n.3(A). Here, however, the government
did not argue for an intended loss calculation; we thus
focus on the calculation of actual loss.
The government bears the burden of proving by a
preponderance of the evidence actual loss attributable
to the defendant’s conduct. United States v. Rodriguez, 751 F.3d 1244, 1255 (11th Cir. 2014). “[A] sentencing court is not generally required to make detailed findings of individualized losses to each victim.”
United States v. Orton, 73 F.3d 331, 335 (11th Cir.
1996) (considering the similar predecessor guideline,
U.S.S.G. § 2F1.1). Instead, the court may employ a variety of methods to derive a “reasonable estimate of
the loss” to the victims based on the information available to the district court. United States v. Snyder, 291
F.3d 1291, 1295 (11th Cir. 2002); accord United States
v. Ford, 784 F.3d 1386, 1396 (11th Cir. 2015); see also
U.S.S.G. § 2B1.1 cmt. n.3(C)(iv) (providing that district courts should “tak[e] into account, as appropriate
and practical under the circumstances,” a variety of
factors including the “approximate number of victims

54a
multiplied by the average loss to each victim”). Although the district court may estimate the amount of
loss, it cannot “speculate about the existence of facts
and must base its estimate on reliable and specific evidence.” Ford, 784 F.3d at 1396; accord United States
v. Sepulveda, 115 F.3d 882, 890-91 (11th Cir. 1997).
Under the guidelines, “[a]ctual loss . . . is defined
as the ‘reasonably foreseeable pecuniary harm that
resulted from the offense.’” Campbell, 765 F.3d at
1302 (quoting U.S.S.G. § 2B1.1 cmt. n.3(A)(i)). This
definition “incorporates [a] causation standard that,
at a minimum, requires factual causation (often
called ‘but for’ causation) and provides a rule for legal
causation (i.e., guidance to courts regarding how to
draw the line as to what losses should be included and
excluded from the loss determination).” U.S.S.G. App.
C, Vol. II at 178, Amend. 617 (Nov. 1, 2001); see
United States v. Evans, 744 F.3d 1192, 1196 (10th Cir.
2014) (“[Section] 2B1.1 incorporates and requires
both factual or ‘but for’ causation and legal or foreseeable causation.”); United States v. Peppel, 707 F.3d
627, 643-44 (6th Cir. 2013) (recognizing that, to establish actual loss under § 2B1.1, the government must
“establish both cause in fact and legal causation by a
preponderance of the evidence”); see also Burrage v.
United States, 134 S. Ct. 881, 887-91 (2014) (holding
that the ordinary meaning of the term “results from”
in a criminal statute requires “but-for causality”).
The MVRA requires the district court to calculate
actual loss “to identifiable victims of certain crimes,
including crimes of fraud.” Martin, 803 F.3d at 592.
Under the MVRA, the district court must award res-

55a
titution to such victims “without regard to the defendant’s ability to pay.” Id. The method for calculating
actual loss, as opposed to intended loss, under the
Sentencing Guidelines is “largely the same” as the
method for establishing actual loss to identifiable victims under the MVRA. United States v. Cavallo, 790
F.3d 1202, 1239 (11th Cir. 2015). In most cases, the
amount of actual loss under the guidelines will be the
same as the restitution figure. Id. Thus, it is unsurprising that to prove a victim suffered an actual loss
under the MVRA, the government must establish
both factual and legal causation in essentially the
same manner as it must show causation under the
guidelines—by proving but for and proximate causation. See, e.g., Martin, 803 F.3d at 594; United States
v. Robertson, 493 F.3d 1322, 1334-35 (11th Cir. 2007).
Here the district court used the same figure for actual
loss under the guidelines and the MVRA. Thus, we
analyze the two calculations together, considering
first factual and then legal causation.
2. Reliance (Factual Causation)
The parties agree that the government must show
that the investors relied on Mr. Stein’s fraudulent information to satisfy the “but for” causation requirement under U.S.S.G. § 2B1.1. See also Currie v. Cayman Res. Corp., 835 F.2d 780, 785 (11th Cir. 1988)
(“Reliance is . . . a type of ‘but for’ requirement.” (quoting Huddleston v. Herman & MacLean, 640 F.2d 534,
549 (5th Cir. 1981), aff’d in part and rev’d in part, 459
U.S. 375 (1983))). The government also must show reliance to prove “but for” causation for restitution purposes. See Martin, 803 F.3d at 594. The parties disagree on what this showing must entail.

56a
As we see it, the government may show reliance in
a securities fraud case either through direct evidence
or specific circumstantial evidence. The government
may of course introduce individualized evidence of reliance—that is, direct evidence that each individual
investor read the false information and relied on it
when deciding to purchase stock. See United States v.
Ebbers, 458 F.3d 110, 126-27 (2d Cir. 2006) (recognizing that reliance can be shown for loss calculation
purposes under § 2B1.1 by offering evidence to
demonstrate “express reliance on the accuracy of the
[fraudulent] financial statements”). But, as the district court aptly recognized, requiring individualized
proof of reliance for each investor is often infeasible or
impossible. See Basic Inc. v. Levinson, 485 U.S. 224,
245 (1988) (recognizing in civil securities fraud context that requiring direct proof of reliance may be “an
unnecessarily unrealistic evidentiary burden on the
Rule 10b-5 plaintiff who has traded on an impersonal
market”); Local 703, I.B. of T. Grocery & Food Emps.
Welfare Fund v. Regions Fin. Corp., 762 F.3d 1248,
1253 (11th Cir. 2014) (same). Thus, in cases such as
this one involving numerous investors, the government may instead offer specific circumstantial evidence from which the district court may reasonably
conclude that all of the investors relied on the defendant’s fraudulent information.
Here, though, the government failed to satisfy either of these options. As a result, the district court’s
statement that “from the record that there [was] sufficient evidence to demonstrate . . . reliance” for 2,415
investors was erroneous. Tr. of Sentencing Proceed-

57a
ings, Doc. 429 at 30. The record contains no direct, individualized evidence of reliance for each investor.
And the circumstantial evidence in the record is far
too limited to support a finding that 2,415 investors
relied on the fraudulent information Mr. Stein disseminated. The only evidence arguably supporting
the reliance finding was: (1) trial testimony from one
investor that he relied on one of Mr. Stein’s false press
releases; (2) a victim impact statement from another
investor to the same effect; (3) a number of victim impact statements suggesting that the investors relied
on press releases and other publicly available information generally, but not specifically the fraudulent
information Mr. Stein disseminated; and (4) testimony that, because the only place to get information
about Signalife stock was from press releases and
public filings, at least some investors likely relied on
this type of information. This evidence standing alone
is insufficient to support the inference that all 2,415
investors relied on Mr. Stein’s fraudulent information
when deciding to purchase Signalife stock. On this
thin record, the district court “engage[d] in the kind
of speculation forbidden by the Sentencing Guidelines.” United States v. Bradley, 644 F.3d 1213, 1292
(11th Cir. 2011); see Sepulveda, 115 F.3d at 890-91.
Accordingly, the district court’s actual loss calculation
was in error.
We therefore vacate Mr. Stein’s sentence, which
was based on a guidelines calculation founded on the
erroneous actual loss figure, and remand for a recalculation of actual losses. On remand, the government
may again seek to prove actual loss by showing losses

58a
suffered by Signalife investors. Alternatively, the government may also seek to prove actual loss through
direct losses to the company resulting from, for example, Mr. Stein’s theft of Signalife stock. See U.S.S.G.
§ 2B1.1 cmt. n.3(C)(i). And if the district court determines that the loss “reasonably cannot be determined,” the court may use instead “the gain that resulted from the offense.” Id. § 2B1.1 cmt. n.3(B).17
3. Intervening Events (Legal Causation)
We next turn to the requirement of legal causation, and, in particular, whether the district court
erred in failing to take into account intervening
events that may have contributed to investors’ losses.
The standard for legal causation for purposes of the
actual loss calculation is essentially the same under
the guidelines and the MVRA. See Cavallo, 790 F.3d
at 1239. Under the guidelines, “‘[a]ctual loss’ means
the reasonably foreseeable pecuniary harm that resulted from the offense.” U.S.S.G. § 2B1.1 cmt.
n.3(A)(i). A reasonably foreseeable pecuniary harm is
one “that the defendant knew or, under the circumstances, reasonably should have known, was a potential result of the offense.” Id. § 2B1.1 cmt. n.3(A)(iv).
17 The government raises a harmless error argument, which we
reject. According to the government, the district court could have
calculated actual loss based on the value of assets Mr. Stein stole
from Signalife or, if loss “reasonably cannot be determined,”
U.S.S.G. § 2B1.1 cmt. n.3(B), by estimating Mr. Stein’s gain. Had
the court used these alternative figures, the government argues,
the Sentencing Guidelines range would have been the same. But
the district court made no factual findings regarding the value
of stolen assets or Mr. Stein’s financial gain, and we will not
make those findings in the first instance.

59a
Thus, the legal cause standard we use under
§ 2B1.1(b) is reasonable foreseeability.
We also consider reasonable foreseeability when
assessing proximate cause for purposes of actual loss
under the MVRA. See, e.g., Martin, 803 F.3d at 594;
Robertson, 493 F.3d at 1334-35. In Martin, the defendant fraudulently obtained loans that later were
sold to successor lenders. Martin, 803 F.3d at 586-87.
The district court relied on losses suffered by these
successor lenders when estimating actual loss for restitution purposes. Id. at 592-93. We upheld the district court’s loss calculation, holding that the successor lenders could recover restitution under the MVRA
because it “was entirely foreseeable to [the defendant]
not only that the original lenders would rely on the
fraudulent applications, but that the mortgages
would be resold to other lenders that would rely on
the applications as well.” Id. at 594. Put differently,
because the intervening event—the sale of the loan to
a successor lender—was reasonably foreseeable, it did
not “break the chain of causation.” Id. (citing Robertson, 493 F.3d at 1334-35).18
In Robertson, in contrast, we vacated a restitution
award because there was inadequate evidence to find
that intervening events between the fraud and the
loss were reasonably foreseeable. 493 F.3d at 1334-35.
The defendant fraudulently obtained computer software from Novell, Inc. and then sold the software to
We vacated the restitution award in Martin, however, because
the district court failed to take into account the amount the successor lenders paid to acquire the mortgages. Martin, 803 F.3d
at 595-96.

18

60a
Network Systems Technology, Inc. Id. at 1327-28.
Network Systems resold the software at a profit. Id.
at 1328. At some later point, Novell sued Network
Systems in a case involving the software purchased
from the defendant. Id. The record did not indicate
the precise ground for the lawsuit. Id. Network Systems settled the lawsuit by agreeing to pay Novell
$125,000. Id.
The district court determined that Network Systems was a victim for purposes of the MVRA, but we
reversed. Id. at 1334-35. “Whether the lawsuit and
settlement were reasonably foreseeable consequences
of [the defendant’s] fraud on Novell,” we explained,
“depends on the nature of the litigation.” Id. at 1335.
All the government had established at sentencing, we
noted, was “that the litigation was ‘related to’ the
units of software” the defendant sold, and this “vague
description” was insufficient to support the district
court’s finding that the lawsuit and settlement were
reasonably foreseeable. Id. Thus, we held that the district court erred in finding that Network Systems was
a victim under the MVRA, and we vacated the
$125,000 restitution award. Id. at 1335-36.
In sum, the causation standards for determining
actual loss under the Sentencing Guidelines and for
restitution purposes are similar. When calculating actual loss for either purpose, the district court should
take into account intervening events contributing to
the loss unless those events also were reasonably foreseeable to the defendant. See id. at 1334.

61a
At sentencing, Mr. Stein urged the district court in
arriving at its loss and restitution calculations to consider that Signalife stock value declined in part because of the short selling of over 22 million shares of
Signalife stock and the across-the-board stock market
decline of 2008.19 The district court failed to consider
these factors, and Mr. Stein argues that this was error. We agree.
Once Mr. Stein pointed to intervening events that
may have affected the stock price, the district court
was obliged to make findings regarding the effects of
these intervening events, if any, and whether these
events were reasonably foreseeable to Mr. Stein. Because the court failed to do so, we vacate the sentencing order. On remand, the district court should determine whether these intervening events affected Signalife’s stock price during the fraudulent period and,
if so, whether they nonetheless were reasonably foreseeable to Mr. Stein. If the district court finds that
these or any other intervening event reduced the
value of Signalife stock during the fraudulent period
and that the events were not reasonably foreseeable,
the district court, to the extent possible, should approximate the effect of such intervening events and
subtract this amount from its actual loss calculation.20
19 Although Mr. Stein offered expert testimony regarding the
stock market decline, it is unclear whether he offered proof that
the short selling occurred or how it may have depressed stock
prices.

Mr. Stein also urges us to follow the lead of two of our sister
circuits in importing the proximate cause principles from the
20

62a
III. CONCLUSION
We affirm Mr. Stein’s judgment of conviction because we find no Brady or Giglio violations, but we
vacate his sentence and remand to the district court
with instructions to calculate anew the amount of loss
for purposes of U.S.S.G. § 2B1.1(b)(1) and restitution
under the MVRA, consistent with this opinion. To reiterate, this calculation may be an estimate so long as
it is based “on reliable and specific evidence” rather
than mere speculation. Ford, 784 F.3d at 1396. In particular, on remand, if the government seeks to prove
an actual loss figure based on losses suffered by Signalife investors, the government must establish by a
preponderance of the evidence that the investors relied on fraudulent information Mr. Stein disseminated. As regards intervening events, if Mr. Stein
again offers evidence that a particular event aside
from his fraud depressed the stock price during the
fraudulent period, the district court must find, based
on a preponderance of the evidence, that such intervening event was also reasonably foreseeable or, instead, subtract from the actual loss amount the monetary effect of such intervening event.

civil fraud context, see Dura Pharm., Inc. v. Broudo, 544 U.S. 336
(2005), into the sentencing context for purposes of calculating
actual loss. See United States v. Rutkoske, 506 F.3d 170, 179 (2d
Cir. 2007); United States v. Olis, 429 F.3d 540, 545-49 (5th Cir.
2005). We decline his invitation because we believe our reasonable foreseeability test strikes the right balance for calculating
actual loss under the Sentencing Guidelines and for purposes of
restitution.

63a
AFFIRMED in part, VACATED and REMANDED in part WITH INSTRUCTIONS.
JILL PRYOR, Circuit Judge, concurring:
As explained in the majority opinion, in seeking to
establish loss in a securities fraud case, the government may show that investors relied on fraudulent information through either direct or specific circumstantial evidence. Although in some cases proving loss
by direct evidence may be practicable, in many
cases—including this one—it simply is not. This
means that in most securities fraud cases the government’s best option likely will be to establish reliance
via specific circumstantial evidence.
In this case, the government failed to offer sufficiently specific circumstantial evidence to support a
finding that 2,415 investors relied on the false information Mr. Stein disseminated. See United States v.
Ford, 784 F.3d 1386, 1396 (11th Cir. 2015) (requiring
that the district court “make a reasonable estimate of
the loss” based on available information). The government only had evidence that two investors relied on
Mr. Stein’s bogus press releases, and it presented little specific evidence that would permit the district
court to extrapolate from that tiny two-person sample
and arrive at a reasonable estimate of loss. Of course,
this begs the question: At what point has the government offered sufficient evidence from which the district court may extrapolate a reasonable estimate? Is
it purely a numbers game, whereby at some point the
sample size of direct evidence of reliance is large
enough that a district court’s inferential leap that all
investors relied is reasonable? I write to explain one

64a
potential method of proving reliance that could eliminate the numbers game and the speculation that, as
in this case, accompanies it.
As two of our sister circuits have recognized, in
seeking to show investors relied on fraudulent information disseminated to the public, the government
could borrow from civil securities fraud cases and establish the so-called “Basic presumption.” Local 703,
I.B. of T. Grocery & Food Emps. Welfare Fund v. Regions Fin. Corp., 762 F.3d 1248, 1253-54 (11th Cir.
2014) (citing Basic Inc. v. Levinson, 485 U.S. 224, 245
(1988)); United States v. Ebbers, 458 F.3d 110, 126-27
(2d Cir. 2006) (recognizing the Basic presumption as
a means for proving reliance for purposes of loss calculation under U.S.S.G. § 2B1.1); see also United
States v. Peppel, 707 F.3d 627, 646 (6th Cir. 2013)
(same). “Under the Basic presumption, plaintiffs may
benefit from a rebuttable presumption of class-wide
reliance ‘based on what is known as the fraud-on-themarket theory.’” Local 703, 762 F.3d at 1254 (quoting
Erica P. John Fund, Inc. v. Halliburton Co., 563 U.S.
804, 811 (2011)). “Fraud-on-the-market claims derive
from the so-called efficient market hypothesis, which
provides, in the words of the Supreme Court, that ‘in
an open and developed securities market, the price of
a company’s stock is determined by the available material information regarding the company and its
business.’” FindWhat Inv’r Grp. v. FindWhat.com, 658
F.3d 1282, 1309-10 (11th Cir. 2011) (quoting Basic
Inc., 485 U.S. at 241).
“If a market is generally efficient in incorporating
publicly available information into a security’s market price, it is reasonable to presume that a particular

65a
public, material misrepresentation will be reflected in
the security’s price.” Amgen, Inc. v. Conn. Ret. Plans
and Trust Funds, 133 S. Ct. 1184, 1192 (2013). It is
also reasonable to presume “that most investors . . .
will rely on the security’s market price as an unbiased
assessment of the security’s value in light of all public
information.” Id. Thus, if the Basic presumption applies, the plaintiff may, subject to evidence in rebuttal, show reliance on a classwide basis without resorting to individualized evidence.
To trigger the Basic presumption, the plaintiff
generally must prove that (1) “the alleged misrepresentations were publicly known,” (2) “the stock traded
in an efficient market,” and (3) “the relevant transaction took place between the time the misrepresentations were made and the time the truth was revealed.”
Local 703, 762 F.3d at 1254 (internal quotation marks
omitted); see also Amgen, Inc., 133 S. Ct. at 1192-93;
FindWhat Inv’r Grp., 658 F.3d at 1310. Of these three
elements, the second factor, known as informational
efficiency, requires more explanation.
Informational efficiency refers to “a prediction or
implication about the speed with which prices respond to information.” In re PolyMedica Corp. Sec.
Litig., 432 F.3d 1, 14 (1st Cir. 2005). “Determining
whether a market is informationally efficient, therefore, involves analysis of the structure of the market
and the speed with which all publicly available information is impounded in price.” Id. This determination
is “fact-intensive” and demands flexibility. Local 703,
762 F.3d at 1254. Therefore, courts have not dictated
“a comprehensive analytical framework for determin-

66a
ing whether the market for a particular stock is efficient,” and instead have recognized “general characteristics of an efficient market” including “high-volume trading activity facilitated by people who analyze
information about the stock or who make trades based
upon that information.” Id. at 1254-55; see, e.g., In re
Scientific-Atlanta, Inc. Sec. Litig., 571 F. Supp. 2d
1315, 1339-40 (N.D. Ga. 2007) (holding that the plaintiffs in a putative class action proved an efficient market sufficiently to trigger the Basic presumption of reliance and support a finding of predominance for class
certification under Rule 23(b)(3) of the Federal Rules
of Civil Procedure).
The Second and Sixth Circuits have recognized
that in appropriate cases the government may employ
the Basic presumption to establish actual loss under
U.S.S.G. § 2B1.1(b) or the MVRA. See Ebbers, 458
F.3d at 126-27 (recognizing that reliance can be
shown for loss calculation purposes under § 2B1.1 by
offering evidence to demonstrate “express reliance on
the accuracy of the [fraudulent] financial statements,” or “reliance on what Basic, Inc. v. Levinson
described as the ‘integrity’ of the existing market
price”); Peppel, 707 F.3d at 646 (adopting the reasoning of Ebbers). I find their reasoning persuasive. In
my view, as in Peppel, if the government chooses to
arrive at a loss amount attributable to the defendant
based on the Basic presumption, it must offer evidence sufficient to establish each of the presumption’s
three elements, described above. See Peppel, 707 F.3d
at 632-33, 646 (describing the government’s evidence
regarding the Basic presumption elements and holding that the evidence supported the district court’s

67a
loss calculation). Once the government establishes
these elements, the defendant may challenge them
with evidence of his own. See Basic, Inc., 485 U.S. at
248-49. The defendant also may try to rebut the presumption with, for example, evidence that individual
investors would have purchased the stock despite
knowing the statements were false. See id.
There surely will be cases in which it is impracticable or otherwise inappropriate to employ the Basic
presumption as a method for demonstrating reliance.
If, for example, a defendant’s fraud affected investors
in an inefficient market, the Basic presumption will
be of no use to the government or the district court. I
do not mean to suggest that the government may
never establish reliance by offering other types of specific circumstantial evidence (perhaps expert testimony) or, alternatively, a combination of direct evidence of some investors’ reliance and circumstantial
evidence to show that other investors were similarly
situated. I simply offer my view that in appropriate
cases the Basic presumption may be a feasible method
for establishing reliance by specific and reliable circumstantial evidence.

68a
APPENDIX D
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 11-80205-CR-MARRA
UNITED STATES OF AMERICA,
Plaintiff,
vs.
MITCHELL J. STEIN,
Defendant.
ORDER DENYING POST TRIAL MOTIONS
THIS CAUSE is before the Court upon Defendant
Mitchell Stein’s post trial motions. This Court having
reviewed the pertinent portions of the record and being duly advised in the premises, it is hereby
ORDERED and ADJUDGED as follows:
1. Defendant's Motion for New Trial in the Interest
of Justice Based Upon Newly Discovered Evidence,
Request for Hearing [DE 260], Amended Motions for
New Trial [DE’s 279 and 280] and Second Motion for
New Trial or in the Alternative, to Dismiss with Prejudice [DE 312] are DENIED. The Court finds these
motions not only to be baseless, but also offensive.
2. Defendant's Motion for Evidentiary Hearing on
Motion for New Trial [DE 261] is DENIED.

69a
3. Defendant’s Rule 29 Motion [DE 265] is DENIED. There was more than sufficient evidence presented upon which a reasonable jury could find, beyond a reasonable doubt, that Defendant was guilty.
4. Defendant’s Motion to Compel Production of
Documents [DE 277] and Motion to Compel Production of Minutes and Transcripts of Grand Jury Proceedings and Incorporated Memorandum of Law [DE
332] are DENIED.
5. Defendant’s Motion for Conditional Release
Pending Sentencing [DE 278] is DENIED.
6. Defendant’s Motions in Limine [DE’s 143, 144,
175 and 178] are DENIED AS MOOT.
DONE and ORDERED in West Palm Beach, Florida, this 9th day of June, 2014.
/s/
KENNETH A. MARRA
UNITED STATES DISTRICT JUDGE
Copies provided to:
All counsel

